           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     ADMINISTRATIVE LEAVE USE

      July 2010   A-06-09-29133




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro mo te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o mm e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rmin e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o mm e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve me n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e mp lo ye e d e ve lo p me n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      July 23, 2010                                                               Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Administrative Leave Use (A-06-09-29133)


           OBJECTIVE

           Our objectives were to determine the effectiveness of the controls over the Social
           Security Administration’s (SSA) administrative leave usage and the appropriateness of
           administrative leave granted to SSA employees.

           BACKGROUND
           Administrative leave refers to an excused absence from duty that is authorized without
           loss of pay or a charge against the employee’s leave balances. The Office of Personnel
           Management (OPM) develops and maintains Government-wide regulations and policies
           on leave administration but does not provide detailed guidance governing excused
           absences. Instead, applicable excused absence guidance is incorporated into a manual
           published by the Office of the General Counsel, U.S. Government Accountability
           Office.1 The guidance states that, since there are no general OPM regulations covering
           administrative leave, each agency has the authority to determine the situations in which
           excusing employees from work without charge to leave is appropriate. However, the
           guidance indicates that generally, Federal employees may not be placed on
           administrative leave with pay for an extended period. 2 Also, during an investigation of
           an employee for wrongdoing, when it is in the best interest of the Government to have
           the employee off the job, the employee may be relieved from duty and continued in a
           pay status without charge to leave for the short time necessary to process a
           suspension.3

           In situations where a disruption occurs on the job or where there is a belief that the
           potential for violence exists, a supervisor may need to keep an employee away from the

           1
               Civilian Personnel Law Manual, Title II, Leave, Chapter 5, Part A, Administrative Leave.
           2
               Ibid, Chapter 5:03.b.
           3
               Ibid, Chapter 5:05.e.
Page 2 - The Commissioner

worksite to ensure the safety of employees while deciding a course of action. Placing
the employee in a paid, non-duty status (administrative leave) is an immediate,
temporary solution to the problem. Agencies should monitor these situations and move
toward longer term actions, when necessary, appropriate, and prudent. 4

Supervisors are sometimes faced with a situation where they have insufficient
information to determine whether an employee poses a safety risk, has committed a
crime, or has a mental condition that might make disciplinary action inappropriate. In
these instances, the agency can issue an indefinite suspension5—an adverse action
that takes an employee off-duty and out of pay status until the completion of an inquiry
or investigation into allegations of misconduct. To issue an indefinite suspension, the
agency must use adverse action procedures, which require a 30-day paid status during
the advance notice of the adverse action. After the 30-day advanced notice period, the
employee can be taken out of pay status pending completion of the investigation,
criminal proceeding, or medical determination.6

We obtained data from SSA’s Mainframe Time and Attendance System (MTAS)
identifying all administrative leave granted to employees from October 2005 through
January 2009. As illustrated in Table 1, during the period reviewed, 97.1 percent of
SSA employees received fewer than 80 hours of administrative leave each. A small
number of employees (17) received 1,000 or more hours of administrative leave each.

               Table 1: Administrative Leave Granted to SSA Employees
                                 October 2005 to January 2009
                                                                              Average Hours
                           Number of                   Cumulative
              Hours                           %                         %     Per Employee
                           Employees                     Hours
                                                                                Per Year
            Under 80          62,307         97.1       1,025,804      79.4           5
           80 to 159.9         1,551          2.4         159,525      12.4            32
           160 to 239.9          185          0.3           34,282      2.7            57
           240 to 479.9           56          0.1           18,119      1.4          100
           480 to 999.9           31          0.1           21,096      1.6          209
          1,000 or More           17          0.0           32,423      2.5          587
              Totals:         64,147         100        1,291,249      100

See Appendix B for additional background and Appendix C for the scope and
methodology of this review.


4
 OPM, Dealing with Workplace Violence: A Guide for Agency Planners, Part III, Section 3, Administrative
Actions to Keep an Employee Away from the Worksite.
5
  Agencies usually propose indefinite suspensions when they will need more than 30 days to await the
results of an investigation, await the completion of a criminal proceeding, or make a determination on the
employee’s medical condition.
6
    See Footnote 4.
Page 3 - The Commissioner


RESULTS OF REVIEW

SSA’s oversight of short periods of administrative leave was generally effective. Review
of documentation in components with the highest administrative leave use or supporting
specific days where the highest amount of administrative leave was granted indicated
the leave was properly authorized and appropriate.7

However, SSA did not establish policies governing leave use in the small number of
instances where it granted employees administrative leave for extended periods. 8 SSA
did not require that timekeepers or certifiers retain documentation justifying or excusing
the absences. Instead, SSA granted extended periods of administrative leave based on
a manager or supervisor’s verbal approval. SSA did not require any legal or
administrative review of extended periods of administrative leave. Further, once the
leave was approved, SSA did not develop a process to monitor extended leave use.
Lack of effective controls over extended administrative leave use could result in
unwarranted payment of salary and benefits to employees who should otherwise be
suspended without pay. Properly documenting leave use helps maintain the integrity
and accuracy of SSA’s payroll system.

Extended Administrative Leave

SSA did not develop specific policies governing extended administrative leave or
require periodic administrative or legal review of cases where it placed employees on
extended administrative leave. As shown in Table 2, we identified 17 SSA employees
who received 1,000 or more hours of administrative leave from October 2005 through
January 2009.




7
    Inclement weather was the primary contributing factor.
8
    We use the term “extended” in reference to approved leave in excess of 30 workdays (240 hours).
Page 4 - The Commissioner

                    Table 2: Instances Where SSA Granted an Employee
                     1,000 or More Hours of Paid Administrative Leave
           Leave      Estimated Salary      Leave Explained
                                                                         End Result
           Hours     Paid While on Leave   and Documented?
  1         1,880         $140,280               NO           Pending at the time of our review.
  2         4,200           $66,664              YES          SSA terminated the employee.
  3         2,800           $56,159              NO           SSA terminated the employee.
  4         2,616         $206,123               YES          SSA terminated the employee.
  5         2,114           $63,337              YES          SSA terminated the employee.
  6         2,120           $76,190              NO           SSA terminated the employee.
  7         1,544         $118,370               NO           SSA terminated the employee.
  8         1,136           $14,634              NO           SSA terminated the employee.
  9         1,008           $39,837              NO           SSA terminated the employee.
  10        2,480         $185,538               NO           Employee retired voluntarily.
  11        1,928         $150,772               YES          Employee retired voluntarily.
  12        1,704         $132,446               NO           Employee retired voluntarily.
  13        1,184           $68,055              NO           Employee retired voluntarily.
  14        1,784           $71,045              NO           Employee returned to work.
  15        1,232           $40,670              YES          Employee returned to work.
  16        1,016           $50,780              NO           Employee returned to work.
  17        1,261               N/A              N/A          Administrative error occurred.
Totals     32,007        $1,480,900

In one case, a timekeeper and certifying official incorrectly charged work hours an
employee—a union representative—spent on union-related activities to administrative
leave instead of to official duty time. SSA was correcting this error at the time of our
audit. In the other 16 cases, SSA placed the employees on extended administrative
leave while deciding on a course of action after incidents of alleged misconduct or illegal
acts. SSA paid approximately $1.5 million in wages to 16 employees who were not
working while the Agency was deciding a course of action.

We requested documentation from the employees’ timekeepers and certifiers to justify
approval of the extended leave. We found that, in 11 of 16 cases, timekeepers and
certifiers maintained no documentation to explain or justify the administrative leave.
These timekeepers or certifiers stated the extended leave was authorized based on
verbal instructions received from someone in their chain of command. Illustrations
follow.

•   Two teleservice center employees were arrested at their workplace while in the act
    of blackmailing/extorting other SSA employees. SSA placed both employees on
    paid administrative leave in February 2007. One employee remained on paid
    administrative leave for approximately 6 months (1,136 hours) and the other for
    approximately 16 months (2,800 hours) before SSA terminated their employment.
    Neither the timekeeper nor the certifying official could provide written documentation
    to support continued payment of salary and benefits to these individuals. The
    certifying official stated that someone in either the Regional Commissioner or the
    Assistant Regional Commissioner’s office verbally instructed him to approve the
Page 5 - The Commissioner

    administrative leave. The certifying official stated one individual received less paid
    leave than the other because he was a newly hired employee in a probationary
    status. As a result, the process for terminating his employment was shorter.

•   A field office employee was arrested and placed on administrative leave in
    December 2005. SSA continued to pay the employee’s salary and benefits for
    approximately 1 calendar month. At that time, the employee was issued an
    indefinite suspension without pay because the Agency had reasonable cause to
    believe the employee had committed a crime for which a sentence of imprisonment
    may be imposed. The employee remained on indefinite suspension until April 2007
    when he was placed back on paid administrative leave, receiving his full salary and
    benefits for another 11 months (the employee was granted a total of 2,114 hours of
    administrative leave) before SSA terminated his employment. The certifying official
    stated she thought SSA had changed the employee’s status from indefinite
    suspension to paid administrative leave because prosecutors dropped the formal
    charges against him. The certifying official could provide no documentation to justify
    reinstating the suspended employee’s pay and benefits, and stated the personnel
    office “. . . took the action without paperwork.”

•   In August 2006, a field office employee called his manager to request use of his
    remaining annual leave because of a family emergency. Available documentation
    indicated that while on leave, the employee was arrested on undisclosed charges
    and remained in jail for at least 10 days. According to the manager, the employee
    left a voice message indicating he was in jail and requesting leave without pay. In
    September 2006, the employee’s manager issued a written notice informing the
    employee he was barred from entering SSA premises as a result of his arrest and
    was placed on paid administrative leave “until further notice.” The employee
    continued to receive full salary and benefits for the next 10 months (1,784 hours), at
    which time a new Area Director reviewed the case, terminated the administrative
    leave, and determined the employee should report to work. The District Manager’s
    letter to the employee stated, “I do not believe that it is in SSA’s interest for you to
    remain on paid administrative leave indefinitely pending the resolution of these
    charges. As a result, I am ordering you to report to duty. . . .” The employee later
    resigned. The certifying official stated the decisions and discussion regarding
    placing this employee on administrative leave involved Regional, Office of Labor
    Relations, and Office of General Counsel (OGC) staff. However, the certifier stated
    these discussions and decisions were not documented because of confidentiality
    concerns. The certifying official further stated that placing the employee on
    indefinite paid administrative leave was consistent with Region-wide practices.

We contacted both OGC and Office of Personnel (OPE) staff to discuss their roles in
ensuring that SSA authorized extended administrative leave only under appropriate
circumstances. OGC staff stated their input was not required before authorization of
extended administrative leave. OGC periodically provided input on the appropriateness
of placing an employee on administrative leave as it related to the adverse action notice
Page 6 - The Commissioner

period.9 However, OGC staff stated its involvement in these cases was limited and only
provided if requested. OPE staff acknowledged SSA has not established policies and
procedures for granting extended administrative leave. OPE staff stated managers
should strive for consistency, avoid disparate treatment, and ensure that approval of
extended leave provides some benefit to the Agency. OPE staff stated that while these
cases are usually discussed at several levels of management, approval of extended
leave is ultimately the responsibility of the supervisor. Both OGC and OPE staff stated
they did not have an ongoing or follow-up role in monitoring the appropriateness of
extended administrative leave use. Because SSA did not develop or implement formal
policies governing extended administrative leave use or implement a mechanism to
periodically review instances where employees were placed on administrative leave for
indefinite periods of time, SSA had no assurance that extended leave granted to its
employees was necessary, appropriate, or consistently approved/denied.

CONCLUSION AND RECOMMENDATIONS

SSA’s controls over administrative leave for short periods were generally effective.
However, SSA placed a small number of its employees on extended administrative
leave but did not develop or implement policies governing use and oversight of
extended administrative leave. Placing employees in paid, non-duty status for extended
periods resulted in both substantial costs and lost productivity to the Agency.
Establishing clear policies governing approval of extended administrative leave helps
maintain the integrity of SSA’s payroll system.

As a result, we recommend SSA:

1. Develop and implement policies governing authorization, review, and approval of
   extended periods of administrative leave.

2. Establish procedures to monitor extended administrative leave use.

AGENCY COMMENTS

SSA agreed with our recommendations. SSA’s comments are included in Appendix D.




                                                       Patrick P. O’Carroll, Jr.

9
  Pursuant to 5 U.S.C. § 7513, in an adverse action for removal, suspension of more than 14 days,
reduction in grade or pay, or furlough for 30 days or less, an employee receives 30 days notice
". . . unless there is reasonable cause to believe the employee has committed a crime for which a
sentence of imprisonment may be imposed . . . ." If there is reasonable cause to believe the employee
has committed a crime for which a sentence of imprisonment may be imposed, the agency can shorten
the notice period to 7 days.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Additional Background
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                  Appendix A

Acronyms
 MTAS      Mainframe Time and Attendance System
 OGC       Office of General Counsel
 OIG       Office of the Inspector General
 OPE       Office of Personnel
 OPM       Office of Personnel Management
 SSA       Social Security Administration
 U.S.C.    United States Code
                                                                                     Appendix B

Additional Background
The Commissioner of Social Security delegated the approval of administrative leave to
the Deputy Commissioner for Human Resources. Per the Social Security
Administration’s (SSA) Delegation of Authority manual, the Deputy Commissioner for
Human Resources further delegated this authority to various levels of management
within SSA. The SSA Personnel Policy Manual provides specific guidance to
management on the approval of short periods of administrative leave for specific
purposes (for example, blood donation or certain types of preventative health
screening).

SSA generally requires that leave requests and approvals be documented on Form
SSA-71, Application for Leave. In some instances (for example, office closures due to
severe weather conditions or a building emergency), SSA management can issue an
administrative order granting administrative leave to a group of employees in lieu of
obtaining a Form SSA-71 for each employee impacted by the office closure.

SSA records administrative leave use in its Mainframe Time and Attendance System
(MTAS). The timekeeper is responsible for inputting the time an employee worked and
periods of absence in MTAS. Per SSA policy, the timekeeper should have a Form
SSA-71 or an administrative order to support any type of leave recorded in MTAS for an
employee. The certifier1 is responsible for ensuring the timekeeper has the proper
documentation for an employee’s leave use. Ultimately, the timekeeper and the certifier
are responsible for the accuracy of leave charged to an employee.2 Time and
attendance records upon which leave input data are based must be retained for 6 years
or until a Government Accountability Office audit, whichever is sooner.3




1
  The certifier is the individual who signs off on the entries made by the timekeeper in MTAS. The certifier
is not always an employee’s leave approving official.
2
    SSA Timekeeper Policy, Chapter 2, page 5.
3
 National Archives and Records Administration General Records Schedule, Transmittal No. 8, General
Records Schedule 2, page 3.
                                                                       Appendix C

Scope and Methodology
To accomplish our objectives, we reviewed administrative leave data retrieved from the
Mainframe Time and Attendance System (MTAS) for all Social Security Administration
(SSA) employees from October 2005 through January 2009. We did not analyze the
system controls for inputting and maintaining administrative leave data. We performed
the following analysis on the administrative leave data.

• Identified individuals who were granted relatively high amounts of administrative
  leave and reviewed all 17 instances where SSA granted an employee 1,000 or more
  hours of administrative leave.

• Identified those components who granted relatively high amounts of administrative
  leave hours to employees. We performed further analysis and identified the top four
  components with the highest amount of administrative leave. For each component,
  we identified the two highest years for which administrative leave was granted.
  Within each year, we selected the top five pay period days. We received
  documentation for these pay period days to support the administrative leave recorded
  in MTAS.

• Identified pay period days with a relatively high number of administrative leave
  records. Next, we identified the top five components that granted the highest
  administrative leave hours for each pay period day. Documentation was received
  from these components to support the administrative leave recorded in MTAS.

In addition to this data analysis, we performed the following steps.

• Reviewed current published SSA administrative leave policy and practices.

• Reviewed decisions and policy from the Comptroller General.

• Interviewed employees from the Office of the Deputy Commissioner for Human
  Resources to gain an understanding of how SSA grants, tracks, and monitors
  administrative leave and to clarify SSA policy and practices.

• Reviewed applicable Federal laws as well as Office of Personnel Management and
  Office of the General Counsel, U.S. Government Accountability Office, guidance.

• Received supporting documentation from timekeepers, certifiers, and other SSA
  personnel, as needed.

• Assessed the appropriateness of the administrative leave granted by comparing the
  source document explanations to SSA policy.


                                             C-1
We tested the data obtained for our audit and determined them to be sufficiently reliable
to meet our objectives. The entity reviewed was the Office of Personnel under the
Office of the Deputy Commissioner for Human Resources, as well as selected
employees’ assigned timekeeper and certifier roles in various SSA components. We
performed our review from September through December 2009 in Dallas, Texas. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                            C-2
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:      July 16, 2010                                                           Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Administrative Leave Use”
           (A-06-09-29133)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment
           SSA Response




                                                           D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, " ADMINISTRATIVE LEAVE USE" (A-06-09-29133)


Thank you for the opportunity to review the draft report. Below are our responses to the
recommendations.

Recommendation 1

Develop and implement policies governing authorization, review, and approval of extended
periods of administrative leave.

Response

We agree. We will develop and implement specific policies governing the use of extended
administrative leave.

Recommendation 2

Establish procedures to monitor extended administrative leave use.

Response

We agree. We will run reports to identify any employees granted 40 or more continuous hours
of administrative leave. We will send the reports to the appropriate component for review and
necessary action.




                                              D-2
                                                                        Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Chasity Crawley, Senior Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-09-29133.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                         Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
